Haug Partners LLP
745 Fifth Avenue, 10th Floor
New York, NY 10151
+1.212.588.0800 Main
haugpartners.com

December 11, 2020
By FedEx

Jonathan A. Herstoff
jherstoff@haugpartners.com

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Re:

Khan v. Merit Med. Sys. Inc. et al., No. 20-773 (U.S.)

Dear Mr. Harris:
I represent Petitioners Nazir Khan and Iftikhar Khan in this case. Under Supreme Court Rule 12.6, I
write to inform the Court of Petitioners’ belief that Respondents Hemosphere Inc., CryoLife Inc.,
Louis Elkins, Mark Grove, Javier Alvarez-Tostado, Siddarth Patel, Luis Sanchez, and Patrick
Geraghty have no interest in the outcome of the petition for a writ of certiorari. The petition for a
writ of certiorari challenges the Federal Circuit’s affirmance of the district court’s grant of Rule 11
sanctions against Petitioners. Respondents Hemosphere Inc., CryoLife Inc., Louis Elkins, Mark
Grove, Javier Alvarez-Tostado, Siddarth Patel, Luis Sanchez, and Patrick Geraghty were not movants
for or awardees of the Rule 11 sanctions that were granted. Accordingly, Petitioners respectfully
submit that those respondents have no interest in the outcome of the petition for a writ of certiorari.

Respectfully,

Jonathan A. Herstoff

cc: See attached service list

Service List
Brent P. Lorimer
David R. Todd
Thomas R. Vuksinick
Workman Nydegger
1000 Eagle Gate Tower
60 East South Temple
Suite 1000
Salt Lake City, UT 84111
(801) 533-9800
blorimer@wnlaw.com
dtodd@wnlaw.com
tvuksinick@wnlaw.com
Patrick R. James
James, House, Downing & Lueken, PA
801 West Third Street
PO Box 3585
Little Rock, AR 72203
(501) 372-6555
pjames@jamesandhouse.com
Brian David Schmalzbach
McGuire Woods LLP
800 East Canal Street
Richmond, VA 23219
(804) 775-4746
bschmalzbach@mcguirewoods.com
Edwin E. Brooks
Kathryn Ann Campbell
Sarah Rashid
McGuire Woods LLP
77 West Wacker Drive
Suite 4100
Chicago, IL 60601-1818
(312) 849-3060
ebrooks@mcguirewoods.com
kcampbell@mcguirewoods.com
srashid@mcguirewoods.com

Jennifer Kurcz
Baker & Hostetler LLP
Suite 4500
One North Wacker Drive
Chicago, IL 60606
(312) 416-6282
jkurcz@bakerlaw.com
Alaina J. Lakawicz
Baker & Hostetler LLP
2929 Arch Street
Cira Center, 12th Floor
Philadelphia, PA 19104-2891
(215) 564-2576
alakawicz@bakerlaw.com

